<html>
<title> - RAISING THE BAR FOR CONGRESS: REFORM PROPOSALS FOR THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-537]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-537

  RAISING THE BAR FOR CONGRESS: REFORM PROPOSALS FOR THE 21ST CENTURY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             SECOND SESSION

                               __________

                             MARCH 14, 2012

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>










                  U.S. GOVERNMENT PRINTING OFFICE

73-685 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
       Joseph C. Harris Jr., Counsel, Office of Senator Lieberman
               Nicholas A. Rossi, Minority Staff Director
                Julie A. Dunne, Minority Senior Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk












                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Brown................................................    22
    Senator Johnson..............................................    25
    Senator Pryor................................................    27
    Senator Coburn...............................................    29
Prepared statements:
    Senator Lieberman............................................    33
    Senator Collins..............................................    36

                               WITNESSES
                       Wednesday, March 14, 2012

Hon. Johnny Isakson, a U.S. Senator from the State of Georgia....     6
Hon. Dean Heller, a U.S. Senator from the State of Nevada........     8
Hon. Jim Cooper, a Representative in Congress from the State of 
  Tennessee......................................................    11
Hon. Thomas M. Davis, Co-Founder, No Labels; Director, Federal 
  Government Affairs, Deloitte and Touche LLP....................    13
William A. Galston, Co-Founder, No Labels; Senior Fellow, 
  Governance Studies, The Brookings Institution..................    15
Donald R. Wolfensberger, Director, Congress Project, Woodrow 
  Wilson International Center for Scholars.......................    17

                     Alphabetical List of Witnesses

Cooper, Hon. Jim:
    Testimony....................................................    11
    Prepared statement...........................................    42
Davis, Hon. Thomas M.:
    Testimony....................................................    13
    Prepared statement...........................................    46
Galston, William A.:
    Testimony....................................................    15
    Prepared statement...........................................    50
Heller, Hon. Dean:
    Testimony....................................................     8
    Prepared statement...........................................    39
Isakson, Hon. Johnny:
    Testimony....................................................     6
    Prepared statement...........................................    38
Wolfensberger, Donald R.:
    Testimony....................................................    17
    Prepared statement...........................................    53

                                APPENDIX

Chart referenced by Senator Johnson..............................    57
Testimony supplement submitted for the Record by Mr. Galston.....    58
Documents submitted for the Record by Mr. Galston................    61
Letter from Mr. Galston and Mr. Davis, dated March 27, 2012......    92
Responses to post-hearing questions for the Record from:
    Mr. Davis....................................................    93
    Mr. Galston..................................................    95
    Mr. Wolfensberger............................................    96

 
  RAISING THE BAR FOR CONGRESS: REFORM PROPOSALS FOR THE 21ST CENTURY

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, Collins, Coburn, Brown, 
and Johnson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning. And before we proceed, I know Senator Brown would like 
to be recognized to make a brief statement.
    Senator Brown. Thank you, Mr. Chairman. I would just note I 
am running the Veterans Committee's hearing over in the Russell 
Building. I am going to go and do that for a little bit, and I 
will be back, but I just wanted to just let you know that. And 
now that my spot is reserved, I appreciate it.
    Chairman Lieberman. Excellent. Thank you.
    Senator Brown. Thank you.
    Chairman Lieberman. Thanks. Thanks to everybody who is here 
for this hearing this morning.
    As you know, we are going to discuss ways this morning to 
break the present gridlock in Congress and get this institution 
back to what it was created to do, which is to work 
productively for our country.
    I know that for some people the very decision to hold this 
hearing was controversial. They have asked us why we would do 
it. And my response was a question back: Why wouldn't we want 
to hold this hearing? Why would anyone feel, based on the 
record, that Congress is fulfilling its responsibilities to the 
American people? Why wouldn't we want to open the conversation, 
particularly on the broad series of proposals made by a 
relatively new citizen-grassroots, good-government group called 
No Labels?
    I know that the particular legislative proposal--the one 
part of the No Labels reform program that is legislative has 
been referred to this Committee--the No Budget, No Pay 
proposal, is controversial. But it, too, in many ways expresses 
and frames the public mood toward Congress today.
    Somebody said to me this proposal is like a legislative 
scream--it is. And it is a scream--whether Members of Congress 
agree with it or not--that has to be heard and responded to.
    The fact is that, as everybody knows, the public's 
estimation of Congress is at historic lows, and there is ample 
reason why that is so. Congress is just not fulfilling some of 
the basic responsibilities that the Constitution gives us, 
including, of course, the responsibility to propose, to debate, 
and to adopt in a timely manner a budget for our country. Let 
me give you some examples of why we are here.
    It has been more than 3 years since Congress has passed a 
budget on time and more than a decade since Congress has done 
so in the manner prescribed by the rules, with all of its 
appropriations bills being separately considered and passed.
    Nominations to judicial and executive positions are often 
held up for months for political reasons by procedural 
maneuvers, and then when those nominations come to the floor, 
they pass by overwhelming bipartisan majorities. But in the 
meantime, important parts of our Executive and Judicial 
Branches of government have gone without the leadership that 
they need to function on the people's behalf.
    On Monday of this week, in the midst of what has been 
called a judicial emergency, which is to say that there are 
great backlogs of cases in many Federal courts because there 
are not enough sitting judges, the Majority Leader of the 
Senate filed procedural motions on the nominations of 17 judges 
which have been held up, even though they came out of the 
Judiciary Committee with bipartisan support.
    And then last summer, as we all know, we came perilously 
close to defaulting on our Nation's fiscal obligations as the 
debt ceiling fight dragged on and on to a critical deadline. 
Default would not only have left us unable to pay our debt, but 
would have also forced a government shutdown.
    Standard & Poor's concisely summed up the situation when it 
announced it was dropping our Nation's long-time AAA credit 
rating to AA-plus, and Standard & Poor's said, ``The downgrade 
reflects our view that the effectiveness, stability, and 
predictability of American policymaking and political 
institutions have weakened at a time of ongoing fiscal and 
economic challenges.'' That is a classic financial community 
understatement, but it is surely the sad truth.
    Today we are going to consider those possible reforms that 
No Labels and others have put forward, and as we consider them, 
I think we also need to focus on the prevailing political and 
congressional mentality that considers ``compromise'' a dirty 
word and makes legislative gridlock practically inevitable.
    Partisanship and ideology have been a part of American 
democracy since our beginning, but our forefathers did not let 
their competing partisan loyalties and often quite strongly 
held competing views prevent them from reaching the kind of 
compromises that were so central to the formation of our 
country and to the progress that we have achieved since then. 
In fact, the House and the Senate are themselves the result of 
the Great Compromise, which is the erroneous name for it--the 
correct name is, of course, the ``Connecticut Compromise.'' 
[Laughter.]
    Because it was authored by two of my home State's delegates 
to the Constitutional Convention, Roger Sherman and Oliver 
Ellsworth, as a way to balance the interests of the large-
population States and the small-population States. It was one 
of the very reasons why the Constitution was adopted and how 
the government was able to proceed.
    Among the very first legislative issues that Congress had 
to confront was how to fund the Federal Government and how to 
pay off our Revolutionary War debt. Sound familiar? Factions 
quickly lined up behind two of the great giants of the day, 
Thomas Jefferson and Alexander Hamilton, but both of those men 
and their followers were able to work through their differences 
and reach a compromise agreement that put our Nation on a sound 
financial footing that both funded the Federal Government and 
paid down the debt.
    And in modern times, which seem far from where we are now, 
Congress has been able to put together bipartisan majorities to 
pass a lot of landmark legislation and in doing so overcame 
serious differences--I am thinking here, for instance, of the 
creation of Social Security or the Civil Rights Acts of the 
1960s. They took on historic challenges and transformed our 
Nation in ways that are everlasting.
    Compromise in all these cases meant not an abandonment of 
principle, but a willingness by all involved to settle for less 
than 100 percent of what each had originally sought.
    Today, while the enormous challenges our Nation faces 
continue, the spirit of compromise is largely gone. Today 
members who honestly seek to understand and accommodate views 
from the other side of the aisle are not often embraced warmly 
by their own parties. In fact, too often they are punished.
    We have a national debt today approaching $16 trillion and 
13 million of our fellow Americans remain unemployed. Our 
Nation's computer networks, on which so much of our economic 
prosperity and national defense depend, are under attack from 
rival nations, terrorists, and organized criminal syndicates. 
Iran seeks a nuclear weapon. Syrian President Bashar al-Assad 
is massacring his own people, and our mission in Afghanistan is 
foundering.
    We need a Congress that can vigorously debate these and the 
many other great challenges we face, find compromise, and then 
come together for the good of the Nation. And that is why I 
think the proposals that we are going to hear today really 
offer us the hope of getting America's legislative train back 
on track.
    We are going to hear not only testimony from colleagues 
Senator Dean Heller and Congressman Jim Cooper on the No 
Budget, No Pay proposal, but Senator Johnny Isakson is here to 
testify about the biennial budget proposal, which is a response 
to that. And then on the second panel, we will have some 
outside experts, independent thinkers who will comment on the 
range of proposals before us.
    I have spent a lot of time going back to the early 
Americans because I think we need their wisdom and also the 
model that they set by their actions. President Washington, in 
his first address to a joint session of the House and Senate on 
April 30, 1789, after he was sworn in, closed with a prayer 
asking that ``the benign parent of the human race'' bestow his 
blessing on the House and Senate so that they might deliberate 
in ``perfect tranquility'' with ``enlarged views'' and 
``temperate consultations.''
    It seems like a long time ago. However, history shows in 
the decades and centuries since then that Congress has at times 
reached Washington's level and realized his vision, and when it 
has done so, it has been at its best. Now more than ever, 
Congress needs to put partisanship and ideological rigidity 
aside and put the needs of our great country first. We need to 
talk to each other, as Washington said, ``in temperate 
language'' so that we might not only enlarge our views but 
bring needed tranquility to the national dialogue as well--and, 
incidentally, provide results to the people of America who have 
been good enough to give us the privilege of serving here.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    With enormous problems facing our country and Congress 
having little to show by way of accomplishments, our witnesses 
today are shining a spotlight on how Congress could accomplish 
more and bicker less.
    A recent analysis by the Washington Times reveals that last 
year marked the least productive session of Congress in more 
than 60 years. Whether one examines hours of debate, the amount 
of conference reports produced, or the number of votes taken, 
the data validate the instinctive frustration that many 
Americans feel about the lack of accomplishments in Washington.
    Like many of our witnesses, I have always believed that 
bipartisanship and compromise are the key to tackling the major 
problems confronting our Nation, whether it is a poor economy, 
high gasoline prices, or the $15 trillion debt.
    Unfortunately, however, that seems out of fashion today. 
Sitting down with those on the opposite side of an issue, 
figuring out what matters most to each side, negotiating in 
good faith, and attempting to reach a solution are actions that 
are too often vilified by the partisans on each side of the 
aisle. Perhaps that is why the American people are so angry 
with incumbents and why the public's perception of Congress is 
so dismal.
    And who can blame the public for their frustration? Today 
we are marking 1,050 days since the Senate has passed a budget. 
The Majority Leader has made the stunning statement that he 
does not intend to take up the President's budget--or any other 
budget, for that matter--which is a troubling abdication of the 
Senate's responsibility under the law.
    The Congressional Budget and Impoundment Control Act of 
1974, a law written by one of my predecessors, Senator Ed 
Muskie from Maine, requires Congress to adopt an annual budget 
resolution, and that budget is critical to controlling spending 
through binding caps and is essential if we are to rein in our 
ruinous debt that is now virtually the size of the entire 
economy.
    So I certainly understand the desire to hold Congress' feet 
to the fire. Some of the proposals discussed here today could 
help while others may not be as effective. I believe that there 
are several worthwhile reform options that we should and must 
consider.
    First, let us take up each and every one of the 
appropriations bills on time prior to the start of the fiscal 
year and allow each bill to be debated, amended, and considered 
on its own merits. That would help restore the public's 
confidence, lead to more carefully considered bills, and 
restore the Senate tradition of free and open debate. This bad 
habit of combining all or most of the funding bills into one 
gargantuan package produces thousands of pages and little time 
for Members to scrutinize the fine print and trillions of 
dollars in spending.
    Second, we need a better understanding of the programs we 
fund and how they are working or not working. That requires 
more rigorous and more frequent oversight, and that is why I am 
proud to be a cosponsor of Senator Isakson's bill that would 
establish a budget for 2 years rather than one. This is the 
approach that is used by the State of Maine and many other 
States. Such a schedule would free Congress to devote the off 
year to conducting oversight together in a bipartisan way on 
the programs and agencies we fund, regardless of which party is 
in charge of the Executive Branch. More systemic due diligence 
could produce more bipartisan consensus about needed reforms, 
program eliminations, and spending reductions, or even spending 
increases for some worthwhile programs. I am grateful that our 
colleague, Senator Isakson, is here today to discuss his 
biennial budgeting bill.
    Third, I want to acknowledge Senator Coburn's leadership in 
offering legislation aimed at identifying redundancy and 
overlap in Federal programs. Without better information, 
Congress will continue to create scores of new programs every 
year, adding to the thousands that already exist. America 
cannot afford any further delay in creating the transparency 
that would help us prevent duplication and overlap.
    There is another proposal that we are considering today 
from the No Labels organization that would require Members to 
go without pay unless we pass a budget and all of the regular 
appropriations bills prior to the October 1 deadline. Our 
esteemed colleagues Senator Heller and Congressman Cooper are 
presenting this intriguing option. Of course, I think it is 
important to acknowledge that the power to negotiate a budget 
through a committee and bring it up for a vote on the Senate 
floor is not equally shared by all Members, no matter how 
forcefully those of us who are not in leadership may advocate 
for a budget.
    My point is that my own determination to pass a budget is 
motivated by doing what is best, by doing what is right, for 
the people of Maine and for the citizens of this Nation. But I 
do not control the Senate agenda.
    What might be more effective? Changing the rules to require 
that a budget be passed before a single funding bill could be 
considered and passing Senator Isakson's biennial budget bill 
are two worthwhile options that would make a difference.
    As Americans tighten their belts in these troubled times, 
they have less tolerance for a profligate, partisan Congress 
that avoids the most basic discipline of developing a budget, 
and that must change.
    Finally, let me very briefly touch on another proposal put 
forth by No Labels. It aims to improve congressional civility 
by calling for no negative campaigning against fellow 
incumbents. I am a firm believer in what I refer to as ``the 
Chafee rule.'' When I was a freshman Senator in 1997, Senator 
John Chafee of Rhode Island advised me never to campaign 
against those with whom I serve. ``Campaign for your Republican 
colleagues,'' he said. ``Go into States with open seats. But do 
not campaign against your Democratic colleagues. It will poison 
your relationships with them and make it far more difficult for 
you to work with them.''
    That was great advice, and it is advice that I have always 
followed. But, nevertheless, the Chafee rule, to which I 
adhere, is distinct from a ban on saying unpleasant or 
uncomfortable things about the actions of our colleagues. What 
would such a ban have meant in June 1950 when Senator Margaret 
Chase Smith, a freshman Senator, took to the floor of the 
Senate and spoke out against Senator Joseph McCarthy, who was 
sitting just two rows behind her? She denounced his actions as 
an assault on the right to criticize, to hold unpopular 
beliefs, to protest, and to have independent thought. And she 
did that not only on the Senate floor but elsewhere.
    So I think we have to be careful to make sure that we 
strike the right balance. I strongly support efforts to bring 
more civility to Congress. I believe, however, that despite 
rules or bans or pledges, Members have always been and will 
always be restrained primarily by their own decency and their 
commitment to the voters, their country, and our Constitution, 
and by the American people demanding more civility in Congress.
    I look forward to a discussion of these issues today, and 
thank you, Mr. Chairman, for holding this important hearing.
    Chairman Lieberman. Thanks very much, Senator Collins, for 
that excellent statement. Of course, I agree with you on the 
whole idea that Members of Congress should not campaign against 
colleagues of the other party. In our case, we have taken that 
even one step further. Though we are of different parties, we 
have campaigned for each other. And that is not the reason why 
we work so well together, and I think this Committee has been 
productive, but it sure does not hurt.
    We will go now to our first panel. I do want to say for the 
record, unfortunately, the Senate will begin voting on matters 
at 11:30. That means I can stay at least close to 11:45. If we 
are not fully done, I will try to come back. But there will be 
three votes then on the highway bill.
    So let us proceed with Senator Isakson, and we call in 
order of seniority. I notice the No Labels provision does not 
inherently call for an end to the seniority system, so we can 
call you without guilt first, Senator Isakson.

 TESTIMONY OF HON. JOHNNY ISAKSON,\1\ A U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. Well, thank you very much, Chairman 
Lieberman, and thank you, Senator Collins. You both are 
examples of what these people here today want out of our 
Congress, and that is good people dedicated to solving problems 
and reaching across party lines to work together. And I commend 
you on holding this hearing today. I commend Representative 
Cooper and my colleague Senator Heller for their engagement in 
this important issue. And I take personal privilege to 
acknowledge the presence of Lisa Borders, an outstanding 
elected and civic leader of the City of Atlanta for whom I have 
the greatest admiration and appreciation for what she has done 
for so many years in our city.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Isakson appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    I would like to ask unanimous consent that my printed 
statement be included in the record.
    Chairman Lieberman. Without objection, so ordered.
    Senator Isakson. I do that because I want to talk to you 
very personally and very sincerely and not reading from a piece 
of paper, which I will put over here.
    George Washington engaged the benign parent to come to the 
House and Senate and allow them to debate in civil discord so 
they could come up with decisions that made sense for the 
country. We now suffer from benign neglect in the Congress of 
the United States of America. We neglect the most important 
responsibilities that we have, and we suffer because of that.
    Senator Johnson, who sits to your right and my left, ran a 
business very successfully for years, a lot more successfully, 
I am sure, than mine. But I ran a business for years, and in my 
business, every September we began having all of our branch 
offices, all 28 of them, submit a budget. We had a retreat in 
November where we thrashed out the budget. We set our goals for 
sales in the future, determined how much revenue would come in 
because of those sales. And then we budgeted our expenditures 
accordingly, and we kicked off the next year knowing what we 
expected to earn, what we were going to spend out of that, and 
how much of a bottom line the company was going to have to 
reinvest in the company. And we spent that next year constantly 
tweaking that budget based on circumstances. We had a system 
that forced us to do the right thing.
    The Congress of the United States needs a system to force 
it to do the right thing. Twenty of the 50 States have biennial 
budgets, and I am very honored that Jeanne Shaheen, the former 
governor of New Hampshire, a fellow Member of the Senate and a 
Democrat, joined me in this legislation, along with 32 other 
Members of the Senate, in a bipartisan bill promoting the 
biennial budget. And what it portends is this: Instead of 
budgeting and appropriating every year--or in this case as we 
are doing now--you set up a system where in the first year of a 
new Congress you do a 2-year budget and a 2-year appropriations 
act. The odd-numbered year is the first year and the even-
numbered year is the second year. The biennial appropriation 
then allows you to do oversight of that spending in the even-
numbered year, which just happens to be the year you are 
running for re-election if you are in the House, or every three 
elections you are running for in the Senate. So instead of 
campaigning on the bacon you are bringing home from the budget 
process, you are talking about the savings you are finding and 
efficiencies through oversight.
    There is a trash bin somewhere in Washington, DC, or a 
recycling bin, where all the Congressional Budget Office (CBO) 
reports and all the inspector general (IG) reports go and are 
thrown away. We call for investigations every year in 
efficiency. We call on agencies to examine themselves. We have 
hearings on them. There is one hearing, no follow-up, it goes 
in the trash bin, and we go back to a process of arguing 
politically over whether we should budget at all.
    So my proposal is very simple. It is not an original idea. 
It is not mine. It is the original idea of 20 of our most 
fiscally sound States. It is based on my experience as a 
businessman. It is based on the practical knowledge that 
everybody in this room understands. Every American family in 
our recession has had to sit around their kitchen table 
prioritizing their expenditures and living within their means. 
It is time the government that they elect did the exact same 
thing. And I would submit to you the Biennial Budget and 
Appropriations Act is the way to do that.
    Last, I find it interesting that 3 years ago Congress 
passed a biennial budget and a biennial appropriations act. We 
did it when we were almost on the doorstep of a government 
shutdown. We knew we had all these veterans coming home from 
Iraq and Afghanistan, and we did a 2-year appropriation for the 
Veterans Administration to have the continuity of funding to 
take care of the soldiers that had risked their lives or even 
died for us. If it was that serious for that occasion, it is 
that serious now for the entire government. It is a way to 
systematically appropriate and budget, plan and have 
accountability, and in the end have a more efficient government 
that responds to what the American people want sitting around 
our kitchen table debating our priorities and living within our 
means.
    I thank the both of you for the time to testify today.
    Chairman Lieberman. Senator Isakson, thanks very much for 
that statement. I was thinking as you were talking, I think if 
there is one thing on which Members of the Senate on a 
nonpartisan basis, it is that you carry within yourself the 
civility and temperament that Washington hoped for in Members 
of the Senate.
    I know you have a busy schedule, so whenever you want to 
leave, we will understand.
    Senator Isakson. If we are not going to do questions, I 
will leave because I have to co-chair a hearing for another 
committee.
    Chairman Lieberman. Go right ahead. Thank you.
    Senator Isakson. Thank you very much.
    Chairman Lieberman. Next we go to Senator Dean Heller from 
the State of Nevada. Welcome.

TESTIMONY OF HON. DEAN HELLER,\1\ A U.S. SENATOR FROM THE STATE 
                           OF NEVADA

    Senator Heller. Mr. Chairman, thank you. Thanks for the 
introduction.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Heller appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    I sent a letter to you and Ranking Member Collins last 
September, to encourage this Committee to look at this 
legislation. And I appreciate the opportunity and thank you for 
the opportunity to talk about No Budget, No Pay, something 
obviously supported by myself, a Republican; my colleague here 
to my left, Congressman Cooper, a Democrat; and the No Labels 
community, a bipartisan group that is looking for ways to 
change the direction of Washington.
    I want to start out by talking about the State of Nevada 
that is currently enduring the highest unemployment rate in the 
country. In fact, Nevada has led the Nation in unemployment for 
more than 2 years. And as I travel the State, I hear from 
individuals who are laboring to make ends meet--families who 
stay up late working on their budget around the kitchen table.
    But in Washington, DC, it is business as usual. Our 
Nation's capital remains a pain-free zone. Congress continually 
kicks the can down the road, leaving tough fiscal decisions for 
future congresses, future administrations, and, of course, 
future generations.
    Our failure to budget is one major example. President 
Obama's most recent State of the Union address marked 1,000 
days since the U.S. Senate passed a binding budget resolution. 
Since Congress last passed a budget, the Federal Government has 
spent $9.4 trillion, adding $4.1 trillion to the debt. In 
fiscal year 2011 alone, Washington spent $3.6 trillion. Compare 
that to the last time the budget was balanced, when $1.8 
trillion was spent.
    I was particularly concerned by the tone set for the 2013 
fiscal year, as Senate leadership announced there would not be 
a regular budget process before the President even submitted 
his budget.
    As the budget has been ignored, the regular appropriations 
process has broken down. Huge omnibus spending measures and 
continuing resolutions have replaced the regular appropriations 
process. This regular appropriations process is a means through 
which Congress should be engaged in rigorous oversight of 
Federal spending, and Congress has proven delinquent in its 
duties through a dysfunctional addiction to short-term, 
shortsighted funding measures.
    Members of Congress are willfully refusing to put our 
Nation on a path to long-term fiscal responsibility. As long as 
this is the case, Americans will continue to be frustrated and 
angry with Washington's inability to produce real results.
    In light of these facts, is it really any mystery why 
Congress is currently experiencing its worst approval ratings 
in history?
    I crafted the No Budget, No Pay Act to force Congress to 
face reality and take responsibility for running this country. 
This legislation requires that the U.S. Senate and House of 
Representatives pass a budget and all appropriations bills by 
the beginning of each fiscal year. Failure to do so would 
result in the loss of pay until Congress takes its job 
seriously. If Congress does not complete its constitutional 
duties, then Members should not be paid.
    This concept resonates with the American people. I know 
because I asked Nevadans during a series of telephone town hall 
meetings last year whether they supported a bill that would 
withhold Members of Congress' pay if they failed to pass a 
budget. I include Nevadans of all political persuasions--
including Independents, Democrats, and Republicans. More than 
4,000 Nevadans participated in this poll, and 84 percent of 
them supported the No Budget, No Pay concept.
    I doubt Nevada is alone in this sentiment. Members of the 
Committee, I submit that if 84 percent of Americans across the 
political spectrum agree on something, Congress needs to stop 
what it is doing and pay attention.
    If we spent more time talking about what the American 
people agree on, I guarantee you that Congress would produce 
better results. More importantly, we would actually implement 
policies that would encourage the economic growth we need to 
ensure that workers can have good jobs to provide for their 
families.
    I have had some people tell me that No Budget, No Pay is 
just a talking point. But it is not to me, and it is not to the 
bipartisan cosponsors who have joined this effort. No Budget, 
No Pay would hold Congress accountable to the American people. 
It reflects the principle that an honest day's work will result 
in an honest day's pay.
    Too many in Congress have come to expect an honest day's 
pay whether or not they have actually accomplished the work of 
the people. Members of Congress are indeed out of touch with 
the American people if they believe they should be rewarded for 
a job poorly done or one not done at all.
    I have heard some of my colleagues scoff at the timeline 
established by this legislation. But Congress has been able to 
accomplish its regular budget and appropriations processes 
before the start of new fiscal years in recent history. It 
happened under President Clinton and a Republican Congress. And 
it happened under President Reagan with a Democratic Congress 
in 1988. There are a handful of other examples--not as many as 
there should be--but the fact remains that these deadlines have 
been met before, and now is the time to start meeting those 
deadlines again.
    While the No Budget, No Pay Act will not solve every 
problem in Washington, I sincerely believe that it would help 
restore regular order in the budget and the appropriations 
processes. These essential functions of Congress are vital to 
fiscal responsibility and keeping our Nation's fiscal house in 
order. We cannot hope to make progress in this Congress or this 
country until we take our constitutional responsibilities 
seriously.
    My hope is that the No Budget, No Pay Act will be adopted 
as part of a broader effort to change the way Congress does 
business and restore the confidence of the American people in 
their government.
    So, Chairman Lieberman and Senator Collins, thank you for 
holding this important hearing, and I deeply appreciate the 
Committee's time and look forward to continuing this important 
discussion in the future. Thanks.
    Chairman Lieberman. Thank you, Senator Heller. We are 
holding the hearing because we believe that the proposal you 
have made with Congressman Cooper and others deserves attention 
because it does express a public view, and it hopefully will 
lead to some kind of action to deal with the total breakdown of 
the budget process hopefully in this session of Congress.
    Senator Heller. Mr. Chairman, thank you.
    Chairman Lieberman. Thank you.
    Congressman Cooper from Tennessee, welcome to the other 
side of the Capitol. You are always welcome here. It is good to 
see you this morning.

 TESTIMONY OF HON. JIM COOPER,\1\ A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Cooper. Thank you, Chairman Lieberman and Senator 
Collins. I appreciate your holding this hearing, and I also 
appreciate the attendance of Senators Coburn, Pryor, and 
Johnson. I appreciate your taking time to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cooper appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    As everyone knows, about 90 percent of the public 
disapproves of the way that Congress has been acting. 
Unfortunately, too few of our colleagues are listening to that 
discontent, and too few are focusing on ways to fix the broken 
branch of government.
    I have been working on this for many years--I had a book 
out in 2006--and trying to do my best to improve this 
institution, which I dearly love. But we have to realize that 
this year we have a rare chance to make some of these good 
reform ideas reality.
    I think this hearing is important because this is the first 
formal institutional recognition that I have seen that Congress 
knows it is sick. The question is: Will Congress be able to 
heal itself?
    We do not know the answer to this question. First of all, a 
reform has to be able for Congress to swallow. If a reform is 
palatable but not strong enough to cure, it will not do any 
good.
    Congress is its own doctor. Neither the Supreme Court nor 
the President can save us. We are our own physician here. Now, 
if we do not act, I am confident that the public will.
    When you ask Democratic and Republican leaders how to fix 
the institution, their answer is always the same: ``Elect more 
Democrats'' or ``Elect more Republicans.'' I wish the answer 
were that simple. Unfortunately, neither political party has 
been doing a good job. Neither party is willing to compromise 
for the good of the Nation. Both parties, as we all know, 
pander to the base and do all they can to blame the other. 
Meanwhile the Nation suffers.
    My favorite nonpartisan group, No Labels, has offered a 
package of 12 reforms, and I am going to speak on the No 
Budget, No Pay reform, but a number of these reforms deserve 
attention, and I appreciate this Committee taking out time to 
focus on these.
    My colleague, Senator Isakson, mentioned biennial 
budgeting, as did Senator Collins. I think that is a great 
idea. I support it. But I am worried that without the No 
Budget, No Pay Act, instead of Congress missing its annual 
deadline, it would just miss its deadline every other year. We 
still need an enforcement mechanism.
    As we all know, Congress has missed so many budget and 
appropriations deadlines now that really no one takes them 
seriously. We have run government too long by continuing 
resolution instead of annual appropriations. We have run 
government almost on a month-to-month, sometimes a week-by-week 
basis. That is no way to run a superpower. That is inexcusable.
    Essentially, we have lost ``one Nation, under God, 
indivisible,'' and we have gained ``one nation, yet again, 
interrupted.'' I am afraid that our start/stop government is 
giving everybody whiplash. America is the victim. And Congress 
is simply not able to get away with this reckless driving 
anymore.
    We heard the warning last summer from Standard & Poor's 
when they downgraded our credit rating for the first time in 
history, and they warned us it is not just due to our budget 
deficits, it is due to our political bickering. The ratings 
outlook is still negative, and we could face yet another 
downgrade unless we behave quickly.
    Mr. Chairman, I wish that we could legislate civility and 
wisdom in this body. Unfortunately, as you know, that is 
impossible. But we can, at a minimum, force ourselves to meet 
our most basic financial deadlines. That is what No Budget, No 
Pay is all about, and we have to admit, most congressional 
activity is difficult to measure. But our duty to meet key 
financial deadlines is clear, achievable, and enforceable.
    The idea of deadlines to me came from a constituent in 
Nashville, Tennessee. He was completely fed up with Congress 
and asked me why Congress was so shameless in repeatedly 
missing our deadlines. He wondered why the members of the 
public had to pay their taxes on time when we do not pay the 
Nation's bills on time. I did not have a good answer for the 
gentleman. Congress must come up with a good answer this year.
    No principle is more basic to American values than no work, 
no pay. The saying in Tennessee, often mentioned by a beloved 
former governor of ours, is, ``If you don't want to work, you 
ought not to hire out.'' People get it. And it is time that 
Congress gets it, because the public expects Congress to lead 
by example. If we shirk our duties, we should not get paid. No 
budget, no pay. No appropriations bills, no pay.
    Now, it is obvious that the No Budget, No Pay Act is not 
popular with all of our colleagues, although we do have a 
growing list of several dozen co-sponsors in the House. Some 
concerns about the bill are certainly legitimate, but most of 
our colleagues are simply running out of excuses for why 
Congress is chronically late and irresponsible
    In a normal year, we have to admit, reform efforts like the 
No Budget, No Pay Act would not have a chance of becoming law. 
It would have a zero chance of passage. But I think this year 
is different. Instead of business as usual winning as usual, I 
think that the public is so tired of our blame games, we are 
going to act. Congress has not been this unpopular since 
polling was invented.
    I am confident that those of us who revere Congress as an 
institution love it enough to tell it the truth, even when that 
truth is painful to hear. I am confident that in this election 
year, many of our colleagues will see that the real choice is 
between reform or defeat, and I think they will choose reform.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Congressman 
Cooper, for that statement. I thank both of you. I know, again, 
you have very busy schedules.
    We have a second panel which will testify on No Budget, No 
Pay, also on the broader No Labels platform of proposals, and 
we will have questions for them. But thanks for your 
leadership, thanks for your statements, thanks for your time. 
We wish you a good day.
    Now we will call the second panel: Tom Davis, co-founder of 
No Labels and currently the Director of Federal Government 
Affairs at Deloitte and Touche; William A. Galston, co-founder, 
No Labels, and senior fellow, Governance Studies at the 
Brookings Institution; and Donald Wolfensberger, Director of 
the Congress Project at the Woodrow Wilson International Center 
for Scholars.
    I thank all of you for being here. We will give our Members 
a moment to depart from the room.
    Congressman Davis, apparently the rules of seniority go 
even after you leave Congress, even though Bill Galston looks 
so much older than you. [Laughter.]
    Congressman, it is great to welcome you back. It was a real 
pleasure to work with you when you were here, and I appreciate 
very much your continuing interest in matters of public policy, 
including particularly through the No Labels group.

 TESTIMONY OF HON. THOMAS M. DAVIS,\1\ CO-FOUNDER, NO LABELS; 
 DIRECTOR, FEDERAL GOVERNMENT AFFAIRS, DELOITTE AND TOUCHE LLP

    Mr. Davis. Well, thank you, Chairman Lieberman. Senator 
Collins, thank you for being here. We worked together on a 
number of issues when I was in the House, and it is good to see 
Senator Coburn and Senator Johnson here as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    I really appreciate the opportunity to be here today, and I 
ask that my entire statement be part of the record.
    Chairman Lieberman. Without objection.
    Mr. Davis. And I am happy to be part of the discussion 
today.
    First of all, I want to start by congratulating this 
Committee on several reform accomplishments that you have 
already completed. Last June, S. 679, sponsored by the two of 
you, cleared the Senate floor. Your bill took about 300 
positions that currently require Senate confirmation, and 
either took confirmation away or expedited the procedures, 
allowing presidential appointees to be able to get to their 
places on time and start work. And I am going to talk a little 
bit more about that, but you have already moved on this.
    Second, you have worked to establish a working group to 
simplify the paperwork requirements for Federal appointees so 
that the vetting process can proceed more expeditiously and 
these appointments can get into place quicker, particularly 
with new administrations.
    And finally, and I think most importantly, you have 
established a bipartisan mantra for this Committee, something 
you do not see throughout the Congress. The two of you working 
together, in your seating, you have set, I think, a tone for 
Members working together. Those are the kinds of things I think 
the public wants to see, and so you are doing your part already 
to bring this about. This is not a Committee where you walk in 
with a red jersey or a blue jersey, and as I said, even your 
seating shows that.
    But you are bucking some macro trends that we see growing 
politically that tend to heighten and reward partisanship and 
brinkmanship and punish compromise. We have seen just from the 
National Journal's ratings an ideological sorting of the 
parties now where the most liberal Republican votes more 
conservative than the most conservative Democrat, and this is 
reinforced in the House by the way Congressional Districts are 
drawn. Now it is generally either a blue district or a red 
district.
    In 2010, you had the largest midterm turnover since 1938, 
and yet as you approached election day, less than a quarter of 
the House seats were really in play. That means most Members 
look to their primaries as their major race, and primaries do 
not reward bipartisanship. They tend to punish bipartisanship. 
They tend to reward ideology.
    Also reinforcing this is the fact that news media models 
now crop up and just thrive on polarization. Their financial 
models call for this kind of thing. We call it ``cognitive 
dissonance'' in psychology. And on the Internet, with no 
filters, you are getting the same kind of polarization.
    Finally, I would just add, on a macro trend, the way 
campaigns are financed today. Parties have been starved for 
dollars and soft dollars have been taken away from parties. 
This money has moved elsewhere into the political sphere, and 
not to centering groups like political parties but out to 
interest groups, which tend to be much more ideological.
    So these are macro trends that have affected the way 
Congress does its business, and you are trying to deal here 
with changing some rules. The end result of all this is we are 
turning into a parliamentary electoral system, as Congressman 
Cooper noted, in a balance-of-powers government. And it has not 
become a very good fit. It is an electoral model that our 
Founders rejected, but it is just what has evolved.
    So I want to address just three issues today that I think 
would add to the discussion.
    The first is that today presidential appointments are 
routinely held up for oftentimes trivial and unrelated reasons. 
Presidential appointees become collateral damage as part of 
larger issues. Advise and Consent is often turned into Delay 
and Obstruct, and this has discouraged qualified people from 
entering government service and people getting to government 
service on time, particularly for new administrations.
    Our solution is pretty simple. Presidential nominations in 
the Executive Branch would receive up-or-down votes within 90 
days. It could still be 60 votes. You could keep that 
threshold. But at least they would get some certainty, and not 
left dangling out there after they have severed their business 
ties, given up their stock options to wait in turn to try to 
enter government service.
    The second proposal deals with the filibuster. No one wants 
to do away with the filibuster, but maybe just making the 
filibuster a filibuster would help. In the first 50 years of 
the filibuster, when a two-thirds vote was required, it was 
used only 35 times, and that was when, as I said, two-thirds 
was needed to invoke cloture. In the last 2 years alone--and 
this has been with both parties--it was used over 100 times, 
and Senators do not even have to show up on the floor now to 
explain themselves. They just signal their intent to 
filibuster, and it effectively stalls legislation. The upshot 
is that even routine legislation has to clear 60 votes, and 
constant filibustering also gums up the Senate calendar.
    Look, I recognize that the filibuster is a powerful tool 
and empowers the minority to force consensus on complex issues. 
But the No Labels filibuster fix and what I suggest today, if 
Senators want to filibuster, just show up. Go through it. Make 
them stand up and talk through that time. Do not just file a 
vote. They can go through this, and I think that would be a 
discouraging factor.
    And, finally, another idea that as Washington debates 
finds, we often deal with different facts. What we want to put 
forward is that every year our nonpartisan leaders, like the 
Comptroller General, would come up before Congress and deliver 
a televised address, where we could at least agree on the 
facts. Today so often in the political sphere, we are not even 
reading from the same set of facts. Everybody has their own 
facts. Being able to do that to a joint session, televised, 
would set, I think, a groundwork where, despite our 
philosophical disagreements and partisan disagreements, we 
would at least be reading off the same set of facts.
    So, again, I appreciate being part of the discussion today, 
and thank you both for holding this hearing.
    Chairman Lieberman. Thank you, Congressman Davis. Thanks 
for those three very thoughtful proposals, which really ought 
to be adopted.
    I take liberties with Mr. Galston because I have known him 
so long, and without belaboring the point, I have great respect 
for him, but also because he spent his formative years in 
Connecticut, he brings to the table the spirit of Roger Sherman 
and Oliver Ellsworth.
    Mr. Galston. And other more roguish characters.
    Chairman Lieberman. I was leaving that out. [Laughter.]
    If anybody in the room is interested, see me later. Welcome 
Mr. Galston.

  TESTIMONY OF WILLIAM A. GALSTON,\1\ CO-FOUNDER, NO LABELS; 
  SENIOR FELLOW, GOVERNANCE STUDIES, THE BROOKINGS INSTITUTION

    Mr. Galston. Chairman Lieberman, Senator Collins, and 
Members of the Committee, I am William Galston, a senior fellow 
in Governance Studies at Brookings and one of the co-founders 
of No Labels. I want to join the other witnesses in thanking 
you for holding this hearing, and on a more personal note, I am 
honored by this invitation and am grateful for this opportunity 
to present my views on congressional reform. I will summarize 
my written remarks, but I would respectfully submit them, along 
with supplementary materials, for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Galston with attachments appears 
in the Appendix on page 50.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, so ordered.
    Mr. Galston. I begin with a brief description of No Labels. 
We are a classic American grassroots organization--Democrats, 
Republicans, and Independents united in the determination to 
make our country better. We began 15 months ago with a meeting 
that 1,000 citizens representing all 50 States attended at 
their own expense. Since then, our membership has grown to 
nearly half a million. We have bipartisan teams of citizen 
leaders in every State and in all 435 congressional districts.
    Our mission can be stated in a single sentence: We want to 
help move our country from the old politics of point scoring 
toward a new politics of problem solving. And I know that this 
goal is widely shared in this room by the Members of the 
Committee, and we are grateful for that.
    A number of No Labels members are here today. As I think 
you can see, they are not carrying torches and pitchforks. They 
are worried but not angry, disappointed but still hopeful. They 
want a government that makes progress on the country's real 
problems. They are not from Washington--and they are here to 
help. [Laughter.]
    No Labels is a movement that meets a distinctive moment in 
our Nation's history. Political scientists have confirmed what 
pundits, elected officials, and citizens have long suspected: 
Our party system is more divided than it used to be; indeed, to 
judge by voting patterns, more deeply divided than at any time 
since the 1890s. This has had consequences for the ability of 
government at every level--but especially at the national 
level--to reach agreement even on routine matters, let alone on 
the challenges that require our system to break new ground.
    Robust debate on fundamentals is, of course, the life blood 
of a healthy democracy, but not if that debate yields mostly 
gridlock and recriminations. In the eyes of most citizens, 
regrettably, that is what has happened.
    Now, while some citizens may have lost confidence in the 
Members of Congress as individuals, No Labels has not. We 
believe that our Senators and Representatives came to 
Washington to promote the common defense and general welfare 
and that they are as frustrated as anybody by the obstacles 
that they have encountered. In our view, our elected 
representatives are public-spirited individuals trapped in an 
increasingly obsolete and dysfunctional system of congressional 
rules and procedures designed for a very different era. The 
correct response, No Labels believes, is to fix the system.
    Just last week, one of your colleagues, Senator Olympia 
Snowe, stunned the political world by announcing that she would 
not seek a fourth term. She described a Senate that was no 
longer capable of finding common ground, and in an op-ed in the 
Washington Post, she said:
    ``I do not believe that, in the near term, the Senate can 
correct itself from within. It is by nature a political entity 
and, therefore, there must be a benefit to working across the 
aisle.'' That benefit can come, she believes, only if the 
American people raise their voices and demonstrate their desire 
for a less polarized, more problem-solving brand of politics. 
And that is precisely what No Labels seeks to do.
    Our focus this year, as you know, is congressional reform. 
Our 12-item agenda is summarized in the booklet, ``Make 
Congress Work.'' Its title expresses the judgment that an 
overwhelming majority of the American people has reached. These 
12 recommendations collectively address three central elements 
of congressional dysfunction: Hyper-polarization, gridlock, 
and, as has already been noted, the dwindling of productive 
discourse across party lines.
    Now, it is fair to ask: If congressional polarization 
reflects divisions in the country, how can procedural reforms 
make a difference? And here is the answer: Although the 
American people themselves are more divided than they used to 
be, they are much less divided than are the political parties 
that purport to represent them. This helps explain why so many 
citizens feel unrepresented and left out, and it suggests that 
by allowing their sentiments to find fuller expression, 
procedural reforms could help reduce polarization.
    Our Founding Fathers established a representative system. 
They did not believe in government by plebiscite, and neither 
does No Labels. Nonetheless, the sentiments of the people are 
hardly irrelevant. An independent poll we commissioned after 
shaping our congressional reform agenda found that every one of 
the 12 items enjoys super-majority support. The least popular 
proposal is supported by 74 percent of the people; the most 
popular, which happens to be No Budget, No Pay, by 88 percent. 
These finding suggest that there is a large untapped demand for 
congressional reforms--especially when the people can 
understand them and believe that they would make a difference.
    In short, we are at one of those junctures in American 
history when good government and good politics coincide. For 
your sake and for the country's, we urge you to seize this 
moment--by moving to a markup for the No Budget, No Pay Act and 
by giving serious attention to a broader range of congressional 
reforms.
    Thank you very much for your attention.
    Chairman Lieberman. Thanks very much, Mr. Galston, for a 
characteristically thoughtful statement, and I look forward to 
the question-and-answer period.
    The final witness on this panel is Don Wolfensberger, who 
is a widely respected expert on Congress and our government, 
and comes to us today as Director of the Congress Project at 
the Woodrow Wilson International Center for Scholars. Thanks 
for being here, and please proceed.

  TESTIMONY OF DONALD R. WOLFENSBERGER,\1\ DIRECTOR, CONGRESS 
   PROJECT, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Wolfensberger. Thank you, Chairman Lieberman. And thank 
you Senator Collins--by the way, best wishes on your 
engagement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wolfensberger appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    It is a pleasure to be here today, and Members of the 
Committee, to see you, and to testify on what is wrong with 
Congress and what might be done to improve its performance and 
its image.
    I have been involved in congressional reform efforts for 
nearly a half-century now--I was just adding up, about 43 
years, 28 on the Hill, 15 down at the Wilson Center--both 
working directly on reform efforts and studying the Congress 
and writing about it. And one of the observations I bring to 
the table as a result of all this work that I have done is that 
no matter how much Congress tries to reform itself, it 
eventually finds itself back in the same trough of public 
disfavor.
    Very rarely does Congress enjoy overwhelming public support 
or confidence. It is a very convenient whipping post for all 
manner of national problems, some things it is responsible for, 
some things it is not. And I indicate in my testimony that 
while I do not think that there is a silver bullet that will 
magically transform the institution, I, nevertheless, think 
that going through a reform process periodically is good for 
the institution. As I mention in my statement, it is like the 
proverbial 2-by-4 upside the head of a mule. It gets Members' 
attention and forces them to consider behaving better 
institutionally and working harder to achieve some constructive 
things for the Nation.
    And I warn against making any bold, brash, ill-considered 
reforms because they can have very adverse consequences for the 
institution. They would make things worse. The Germans have a 
word for this: ``schlimmbesserung''--an improvement that makes 
things worse. We call it ``a reform that goes bad.''
    I have provided 10 guiding objectives for use in shaping 
any reforms and 10 things to avoid. Among the things that you 
should want are ending gridlock, ending bitter partisanship and 
incivility, strengthening the Legislative Branch vis-a-vis the 
Executive Branch, better balancing committee powers with party 
leadership powers, addressing real problems and not just 
politically appealing issues, enhancing Congress' oversight 
role, and better informing the people about the activities of 
their government.
    I will not repeat the 10 things that I tell you to avoid. 
Many of these are mirror images of the 10 positive objectives, 
but I will mention just two: First of all, do not punish the 
Congress for its failings; and, second, do not diminish further 
the public's respect for Congress by belittling it. How many 
Members of Congress do we know that run for Congress by running 
against it and then, when they get here, wonder why the people 
are down on it?
    Finally, I would mention four things that I think can help 
improve things in some of the areas that we are concerned with.
    First and foremost, restore the regular order in committees 
and on the floor. You do not need a whole new set of rules. 
Just adhere to those that exist, and I think you will go a long 
way to restoring comity, deliberation, and fairness.
    Second, restore conference committees between the House and 
Senate, and thereby eliminate what I call ``leadership ping-
pong matches''--that is, batting amendments back and forth 
between the Houses. Let committees and their members do this 
work. Leadership is not good at it. They have neither the time, 
the inclination, nor the expertise to be good legislators.
    Third, focus on doing your principal job right, and to this 
I commend No Labels and Mr. Galston for bringing this to 
people's attention, and that is, managing the purse strings. 
Here I think leadership should lead in making sure that budget 
resolutions and appropriations bills are all passed on time.
    I recommend in my testimony going with a biennial budget 
resolution with binding 2-year spending ceilings that would be 
spun off into law, similar to what we had last year with the 
Budget Control Act, while retaining the annual appropriations 
process as a means to maintain control and scrutiny of the 
Executive Branch.
    Finally, I recommend disentangling campaigning from the 
legislative process. The perpetual campaign is polluting what 
was once a culture of lawmaking. I particularly single out in 
my statement leadership political action commitees (PACs) as 
driving too many important decisions within the Congress, such 
as how committee and subcommittee chairs are chosen in the 
House. You must find ways to de-escalate what I call ``the 
money chase'' in Congress and turn that money machine under the 
dome back into a lawmaking machine.
    I will be happy to elaborate on any of these or any of the 
other proposals that have been brought up today, and with that, 
I thank you again for your attention and for inviting me here.
    Chairman Lieberman. Thank you very much for your testimony.
    We will go to questions from the Committee Members, and let 
us do 6-minute rounds so we make sure everybody gets an 
opportunity.
    I have been over this document, ``Make Congress Work.'' I 
think it is really an excellent document, and I want to note 
for the record what Mr. Galston has said. This No Labels group, 
in my opinion, is a genuinely grassroots movement. It is 
obviously started by leaders; otherwise, it would not take 
shape. But the growth that it has shown over the relatively 
short time it has been in existence is another message to us. 
And I think this is a series of very constructive proposals.
    I would guess, most Members of Congress would say, ``That 
is a good idea.'' Some of them, a couple, would probably have a 
hard time going beyond, ``That is a good idea,'' such as not 
campaigning against colleagues from another party, because both 
party committees pressure Members to campaign against 
colleagues, which is a terrible and destructive idea. But I 
want to begin my questioning by going right to No Budget, No 
Pay because that is--as you have indicated in the polling you 
have done--the most popular of the 12 No Labels proposals. You 
will not be surprised to hear, not as a result of a socially 
scientific poll but an informal random poll of Members of 
Congress, it is the least popular of the 12 proposals among 
Members of Congress.
    But to be fair about it, I want to ask you--and, in fact, 
people have said to me, ``I cannot believe you are holding a 
hearing on this.'' Well, as I said before, I view it as a 
legislative scream, which I mean it is a shout for attention. 
And to use Mr. Wolfensberger's metaphor, a classic one, it is a 
2-by-4 to get attention, in this case, may I say, not only of 
the recalcitrant mule but of the recalcitrant elephant as well.
    But let me ask this question, and these are the critical 
questions, that is, the questions that are negative. So it 
makes you feel good if Members of Congress do not get paid 
unless they adopt a budget, but is that really the problem? 
Isn't the problem, to some extent--all of you and we have 
said--this decline in bipartisanship, increase in ideological 
rigidity, the kind of macro issues Congressman Davis talked 
about? Or isn't the problem the budget process, which clearly 
does not work? So why adopt No Budget, No Pay? Maybe I will 
start with you, Mr. Galston, and then go to Mr. Davis.
    Mr. Galston. Well, let me begin by stating the problem as I 
see it. In 1974, the Congress adopted a very good Budget Act, 
and I am not surprised to hear that it had a Maine provenance. 
We would be in a much better place if the Congress of the 
United States were able to adhere to the terms of that Act. It 
not only prescribes a series of steps, as everybody knows; it 
also prescribes a timetable.
    It has been more than 15 years, since 1996, that the 
Congress of the United States actually complied with that 
timetable. And you have heard a description, which I am sure is 
very familiar to all of you, as to what usually ensues to 
replace that timetable--an endless series of continuing 
resolutions, stop-and-go budgeting, etc.
    Speaking for a minute as a political scientist, it is hard 
for me to resist the conclusion that the incentives pulling 
against complying with the 1974 act are a lot stronger than the 
incentives pulling in favor of complying with the Act. And that 
leads to a classic Madisonian question: If men, and even women, 
are not angels, how do you arrange institutions and procedures 
to make it more likely that compliance with rules and 
institutional norms will, in fact, come to pass?
    We have put forward the No Budget, No Pay Act as one way, 
we believe a powerful tool, for changing the incentives that 
individual Members feel and the institution as a whole feels. 
We would not be disappointed if men and women of good will on 
both sides of the aisle who are not in the leadership felt 
impelled to put more pressure on their leadership than they now 
do in order to induce a more reasonable agenda and a more 
timely agenda for the fulfillment of what Mr. Wolfensberger 
quite properly called ``the most basic function of our 
government.''
    But let me make it clear. We are not here to end a 
conversation. We are here to begin a conversation. If there is 
a better way of doing this, the citizens of the United States 
are eager to hear it. But let me tell you what they are not 
eager to hear. They are not eager to hear that some cultural 
transformation of this institution, a new spirit of good will 
and comity, will break out all by itself. I think people are 
beyond believing that that is going to happen.
    Chairman Lieberman. Well said.
    Mr. Davis, let me ask you to focus on the other criticism 
of the No Budget, No Pay Act, which I am sure you have heard, 
simplistically speaking, it imposes a system of collective 
guilt, and people in Congress who are wealthier could get along 
without pay, people who are not will suffer from it; the ones 
who suffer from it may not be the cause of the problem, or at 
least not fully.
    Mr. Davis. It would probably have more effect in the House 
where the Members are not as wealthy as in the Senate, if you 
look at the facts. [Laughter.]
    Chairman Lieberman. I am so glad I gave you the opportunity 
to say that. [Laughter.]
    Mr. Davis. But I am in the private sector now, so I can 
take a different view.
    Just a couple things. What people want are results. It has 
been back in 1996 the last time that we passed the budgets on 
time, and that was following two government shutdowns in 1995. 
So there was at that point an incentive. Just keeping the 
lights on through continuing resolutions (CRs) means innovation 
does not start. Middle-level managers are afraid to do anything 
until they know what their budget is going to be for the year. 
And the year before last, it was May before we received the 
appropriations done for an October 1 start time.
    What people want are results, and I agree with Mr. Galston, 
if you can find a better way to do it, do it. But this is 
untenable.
    Chairman Lieberman. Thanks. My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to take up the challenge of a better way to 
accomplish the goal. I mentioned two in my opening statement. A 
third is an idea that actually the bipartisan Gang of Six came 
up with, and I am going to propose to you a variation of it, 
and that is, to empower a small group of bipartisan Senators to 
force consideration of the budget under the rules. A budget 
resolution could be introduced by at least three Senators from 
each side of the aisle, and we could change the process so that 
it would automatically be put on the calendar for floor 
consideration if the Budget Committee fails to report a budget 
by April 1, 2012.
    In other words, instead of putting up with the 
dysfunctional process we have now, which is completely 
dependent on the Budget Committee acting and the leadership 
acting, why not empower a bipartisan group--so six Senators, 
three from each side of the aisle--to be empowered to bring 
forth a budget resolution if the leadership fails to do so and 
make it a privilege motion? I mean, there are all sorts of ways 
to ensure its consideration. It seems to me that would 
accomplish the goal of either forcing the Budget Committee and 
the leadership to act, or you have this alternative budget on 
the floor and it has to be bipartisan.
    So I would like each of you to quickly comment on that idea 
so I can get to a second one also.
    Mr. Davis. How would it work in the House? The House is a 
different animal and, as you know, much more partisan in terms 
of the way it operates on that. I just throw that out. So the 
Senate may be handled, but we have tried super committees and 
other things. They have not seemed to be able to work.
    What is clear is the current system is not working, Senator 
Collins, so that is my comment. It may work, something 
different, where you can have some independently empowered 
Members. But let us just look at these macro trends, bucking 
your party on this, and it takes, I think, some Members who 
have some courage to do that.
    Senator Collins. Mr. Galston.
    Mr. Galston. Off the top of my head, it sounds like one 
promising way of promoting timely consideration of the budget 
resolution. That leaves the problem of the 12 appropriations 
bills to be dealt with, and the inability of Congress to 
complete those before the beginning of the next fiscal year is 
perhaps the more fundamental problem that the No Budget, No Pay 
Act addresses.
    Senator Collins. Mr. Wolfensberger.
    Mr. Wolfensberger. Yes, I am not as familiar with the 
Senate as the House, though I know that a few people can get a 
lot done over here in the Senate, and I think it is still a 
matter, though, of finding a way to work with leadership to try 
and get something on the floor. I agree with you that it is 
very frustrating.
    If I could go back to the question, though, on No Budget, 
No Pay, I think it is a great 2-by-4, but I disagree with it. 
And I do so because I think it goes against the first of my no-
no's on what you should be doing in congressional reform, and 
that is, this humiliates, it demeans, it diminishes the 
Congress. It makes it sound as if Congress is not working 
because it has not completed all of its work on time. The fact 
is Congress is still working very hard at a lot of things, not 
just trying to get the budget process finished but other things 
as well. And so I think to dock Members' pay--because the 
leaders on appropriations or the party have not been able to 
move things forward in a timely way is very unfair.
    But let us assume that it is, in effect, No Budget, No Pay. 
I will give you three scenarios which would really be bad.
    First of all, let us say that you have no budget resolution 
this year. Senator Harry Reid does not want one. The House may 
well adopt one. Let us say the House does. Let us say that all 
12 appropriations bills are still enacted. They can go forward 
on May 15, even if you do not have a budget resolution. Let us 
say they are all enacted by September 1. If Senator Reid sticks 
by his guns, you are going to dock every Member's pay for the 
rest of this year because they have not gotten a budget 
resolution.
    Scenario two, let us say a budget resolution is adopted by 
April 15. Let us say by September 30, the last three 
appropriations bills are sent to the President, the other nine 
have already been signed into law, and the President vetoes 
those. For every day then that the Congress does not get a new 
set of bills up, it is going to be docked its pay because the 
President has vetoed the bills.
    Last, the House passes a budget resolution by April 15. It 
passes all 12 appropriations bills before the August recess, 
but only three bills clear the Senate. The House has passed all 
of them, and they are signed by the President, the three bills. 
But the House is going to be punished for having done its work 
even though the Senate has not been able to get the other nine 
bills to the President on time.
    So those are, I think, practical ways in which you are 
going to have some difficulty with this proposal. I do think 
that it is great that the issue has been raised. I think there 
are ways, though, to get the leadership in the appropriations 
committees to do a much better job, both on budget resolutions 
and on appropriations.
    Senator Collins. Thank you. I would point out that the 
House did pass a budget resolution. The problem has been much 
more on the Senate side, which is why I think the proposal I 
advanced might work.
    My time has expired, so I am not going to be able to go on 
to my other questions. Let me just say one sentence, and that 
is, No. 8 on the No Labels list calls on Members to take no 
pledge but the Oath of Office and the Pledge of Allegiance. I 
happen to follow that rule. I am one of very few Republicans 
who did not sign the Grover Norquist pledge, for example. But I 
have to say I think that raises real First Amendment questions, 
and that is something I am going to submit for the record.\1\
---------------------------------------------------------------------------
    \1\ The witnesses' responses to Senator Collins questions for the 
Record appear in the Appendix on page 93-97.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman. I appreciate you 
adjusting a little bit. I am actually the Ranking Member on the 
Veterans' Affairs Committee. I will be leaving right after 
this. But I did want to come and participate. I know there are 
folks here from Massachusetts, so thank you for taking the time 
to come.
    I know, Mr. Galston, we met and I enjoyed our meeting very 
much. I will just convey some of the things that I conveyed to 
you. I want a budget. I have been asking for it since I got 
here. I have only been here about 2 years now, and you are 
talking to two of the most bipartisan Senators in the entire 
Senate. I vote with my party 54 percent of the time. And, 
Congressman, you said we need a better way to do it. Sure, the 
better way to do it is just to read the bills, understand them, 
see how they affect your State, your country, your debt, and 
your deficit, and you vote regardless of party, regardless of 
special interest, as we do. And I encourage my party and 
Members of the opposite party to do the same thing. I mean, 
that is the easy answer, to just step back and be Americans 
first and do what is important, because we are in trouble right 
now and we need to work together.
    The things that we have done, Mr. Wolfensberger, I 
appreciate your referencing that, we are working. Three of us 
have spent 600 hours trying to save the post office, and so we 
are trying to do things in a truly bipartisan manner. And this 
Committee is evidence of that bipartisanship and the fact that 
we do that on a daily basis.
    I do appreciate your efforts, some of the things you are 
working on, and I have been doing since I got in my elective 
office. So I am glad that you are moving forward with that.
    I had a question for the Congressman and for Mr. Galston, 
if I could. As you know, since I came to Washington, as I said, 
I look at every bill and I vote yes or no on the merits. I do 
not care if it is the bill of a Democrat or Republican, from 
North, South, East, or West, it really does not matter. If we 
all just had the courage of our convictions rather than 
following the leader of our party, think how much we could do. 
Isn't that the meaning of No Labels? Isn't that what you are 
trying to convey as the stuff that Senator Collins and I and 
others are trying to do up here?
    Mr. Davis. Senator, that is exactly what No Labels referred 
to, is you park your party. Elections are for elections, and 
after the elections, act like grownups and work together to try 
to solve the country's problems.
    I was fortunate to be from a very swing district where I 
was not punished in a primary when I went against my party, and 
you are from a State where you probably get the same thing. But 
a lot of these Members, as I noted in my opening remarks, are 
from very safe seats and their races are their primary. And we 
have seen in some recent elections where Members who buck the 
party get held accountable. So the incentives are get through 
your primary elections and keep that red shirt or blue shirt 
on. And that is a macro problem, reinforced by the media and 
the way campaigns are financed that make it harder.
    Senator Brown. Do you have any comments at all, Mr. 
Galston, on that? Isn't that the intent of what you are trying 
to do?
    Mr. Galston. I do not think that any member of No Labels, 
including the two who happen to be seated at this podium, could 
summarize it any better. That is absolutely what we intend to 
do.
    Senator Brown. Great. Well, thank you.
    Mr. Wolfensberger, I agree that the gridlock in Congress 
is, as I have said, disgusting at times, that is my 
phraseology. As someone who has worked on several major 
bipartisan congressional reforms, most recently the insider 
trading bill, my bill that passed 96-3. I encouraged the 
Majority Leader to do just that, and we have been waiting for 
those types of good government initiatives to hopefully 
partially re-establish trust with the American people.
    What do you think the biggest hindrance is in bringing the 
parties together? And what created bipartisanship in the past? 
And what can be done to restore it now, do you think?
    Mr. Wolfensberger. That is something I am still studying 
quite a bit. [Laughter.]
    Senator Brown. I think we all are.
    Mr. Wolfensberger. But, no, the turn to a more partisan 
Congress, I trace it back really to the late 1960s, mid-1970s, 
when there was a great deal of criticisms that the parties 
stood for nothing. Political scientists were part of this, too. 
The parties should stand for something. And now we have gotten 
to the point where they are standing at either pole and not 
really talking to each other or getting together on much. So 
perhaps they stand for too much and do not really act on 
enough. I do not know.
    But how you get back is the thing that I have been trying 
to wrestle with, is how you re-establish more of a bipartisan 
atmosphere on things where the parties should be able to find 
common ground. I cannot believe that we cannot find common 
ground on a highway bill, on an education bill, or on an energy 
bill. There have to be ways that they can get together on 
things where there is not a clear ideological thing but there 
is something called ``the good of the country'' that overrides 
any considerations of party or ideology. But it is a work in 
progress for me.
    Senator Brown. It is interesting. I believe you are right 
on that. I mean, the hire-a-hero veterans bill, the 3-percent 
withholding, the most recent insider trading bill, things that 
I spearheaded and we are pushing through, essentially passed 
100-0. I agree. We can find that common ground. And I am a 
little bit concerned also about the nomination process, the 
advice and consent that I take great interest in and I consider 
it one of the most important duties that I have.
    This would be to Congressman Davis. Can you explain any 
other ideas you have to make that process go a bit more 
smoothly?
    Mr. Davis. The nomination process? Again, I think if you 
set a limit on these where they get an up-or-down vote after a 
given period of time; 90 days is what we suggest for vetting. I 
think you could still require 60 votes, but at least at that 
point you get a vote. Many of these nominations are just 
dangling out there.
    Senator Brown. Yes, well, I know Senators Lieberman and 
Collins have actually spearheaded----
    Mr. Davis. Exactly.
    Senator Brown. And I think many of us are up here were co-
sponsors, and it would eliminate a lot of those. Part of the 
problem is actually just the process itself, how it starts. You 
have so many different agencies. The applications are 
different. They do not have enough investigators to investigate 
the backgrounds and do the background checks. We have actually 
pushed for legislation to allow for a certain amount of 
appointees to actually not be in that same category. I think 
that is a great first step, and I want to commend Senator 
Collins and the Chairman for doing that.
    I am listening. Like I said, I think I am trying to lead by 
example, and I think that is really the key. We just need to do 
our jobs.
    I have to get back downstairs, Mr. Chairman, but I will try 
to come back. Thank you.
    Chairman Lieberman. Thanks very much, Senator Brown, for 
coming back. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman, for holding this 
hearing. It is an important one, and I guess I bring a slightly 
different perspective to the table here. I did not run for the 
U.S. Senate because I wanted to be a U.S. Senator. I ran 
because we are bankrupting this Nation, and to respectfully 
disagree, I think the American people want results, but also 
what they want is some fiscal discipline here. They also 
realize that we are bankrupting this Nation.
    My background is in manufacturing, and you have a problem, 
you have to identify the root cause. If you have an engine 
leaking oil, I mean, you can keep adding oil. But you are 
better off changing the gasket. And our problem is not that 
Congress has not done too much. Our problem is Congress has 
done way too much with very little thought on how we are going 
to pay for it.
    A number of people have mentioned our Founding Fathers. I 
think America has really forgotten what our Founding Fathers 
knew, that, sure, we needed government, but that, by and large, 
government was something to fear because they understood that 
as government grew, our freedoms receded.
    And so they set about to try and set up a system of 
government to limit the growth of government, and to me that is 
the root cause. The root cause of what is ailing this Nation, 
the root cause of what is bankrupting this Nation, is the size, 
the scope, all the rules, all the regulations, all the 
intrusion into our lives, and the resulting costs to 
government.
    One of your reforms is filibuster reform. I have a graph 
here.\1\ It was interesting. When I came here, I started 
reading about the history of the filibuster and, of course, 
somebody mentioned that initially when it was instituted to 
bring cloture to debate, it was a two-thirds limit. And so I 
asked, it would be interesting to graph. As we made it easier 
for government to grow, what happened to government? Well, it 
went from 2 percent, 2 cents of every dollar filtering through 
government. And now we are up to about 24.5 percent of gross 
domestic product (GDP), and we are on a trajectory to hit 
almost 35 percent by the year 2035. So we have made it easier 
for government to grow, particularly in 1975 when we lowered 
that filibuster threshold to only three-fifths.
---------------------------------------------------------------------------
    \1\ The graph submitted by Senator Johnson appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    Now, it took 30-some years for one party to gain that 
super-majority control, and what happened? We went from about 
20 percent of GDP of government to about 24 in 2009, and, 
again, you can see the trajectory.
    Do you agree with that root cause, that it is the size of 
government, first and foremost, that is more important than if 
are we getting along here in Congress?
    Mr. Davis. Senator, I will start. As a former House Member, 
I think we are an airplane flying into a mountain, and you want 
to steer it here or there, but it is unsustainable borrowing 40 
cents on the dollar. I agree with you.
    Senator Johnson. Would it be better off if we actually 
instituted some real fiscal controls here? I have always 
thought this was a two-step process. What would be wrong with a 
constitutional amendment to limit the size of government to a 
certain percentage of GDP? Wouldn't that provide the fiscal 
control the American people are really looking for? What would 
be wrong with that?
    Mr. Davis. We have tried that. When Senator Coburn and I 
were in the House, we passed constitutional amendments on 
balanced budgets and the like, and they could get through the 
House, but they could never get through over in this body.
    Senator Johnson. How about if we put everything on budget? 
In the 1960s, about 68 percent of every budget dollar was 
appropriated. It was subject to some level of control. Last 
year, only 38 percent was actually appropriated, and in 10 
years that will only be 25 percent. So 75 percent of our budget 
in 10 years will be totally off budget, not appropriated, out 
of control. How about if we put everything on budget? Why don't 
you propose that? And, oh, by the way, when we put the 
entitlements back on budget, why don't we put a requirement for 
a 75-year solvency requirement for those entitlements? Mr. 
Galston, would that be a good idea?
    Mr. Galston. No Labels has chosen to begin with process 
reforms. Let me put on a different hat that I also wear. I am a 
member of a clandestine, bipartisan fiscal sustainability 
conspiracy that includes representatives from far right to 
considerably to the left of me. We actually put out a proposal 
called ``Taking Back Our Fiscal Future,'' which tried to create 
a 5-year budget for those portions of the budget that you are 
referring to that are not now part of the annual budget 
process.
    When Alice Rivlin was here a few weeks ago to testify 
before Congress, she made exactly the same point, that when the 
1974 act was adopted, the percentage of the budget represented 
by discretionary spending and, therefore, the annual 
appropriations process was much more than 50 percent, now it is 
way less than 50 percent, that is a serious problem. And in 
another venue, I would be happy to discuss it in as much length 
as you have time for.
    Senator Johnson. Let us talk about process control. From my 
standpoint, I am new here, never been involved in politics. I 
come from a business background with accounting. We do need a 
good process because in the manufacturing process, if you do 
not have a good process, you have an awful product, and that is 
our problem.
    Everything here in Washington is additive. What is a new 
piece of legislation? Let us slap it on the books here. Let us 
do it quick. How about if we institutionalized a process of 
subtraction? How about a sunset committee? That is one of the 
things I am working on, a joint sunset committee whose only 
mandate is to look at the Federal Government, let us take a 
look at the laws, rules, and regulations that do more harm than 
good, and let us remove those. Let us start figuring out a way 
we can reduce government's intrusion in our lives. What would 
you think about that proposal?
    Mr. Galston. It is sometimes said that the only true 
example of immortality is a Federal program, and there is 
clearly a problem that a lot of obsolete programs that were 
good for their time but are good no longer linger out of habit 
or because they have gathered some political barnacles that 
encrust them. And so my personal view is that we ought to think 
much more aggressively about sunsetting and sunset procedures 
than we do.
    Senator Johnson. I would love to work with your group on 
that type of proposal. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Johnson. Those were 
good exchanges.
    Senator Pryor, and then finally Senator Coburn.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman, and thank you for 
having this hearing. My understanding is that not all of our 
colleagues were encouraging you to have this hearing, but I am 
glad that the two of you decided to have it.
    I think there is some good news here, and that is the idea 
there is nothing wrong with Washington that we cannot fix. It 
is just a matter of political will. And one thing I appreciate 
about No Labels is you are putting ideas out there for us to 
talk about, to think outside the box, to think about doing 
things differently, and maybe to build national consensus on 
getting the political will necessary to get some good reforms 
done here in the Congress.
    But, really, there are lots of different ways to do it. You 
could do it by rule changes. You could do it by changing laws. 
You could just do it by changing the way we commit to each 
other that we are going to do our business here.
    But on the budget itself, let me say this: One of the 
things that I have been working on, Mr. Chairman, is to 
actually go back to the Budget Reform Act of 1974, and since I 
have been here for 9 years, it has never really worked exactly 
the way it is supposed to work. Maybe one year out of those 
nine, I think we have actually followed that law to the letter. 
And it is time for us to look at that. That law is now 40 years 
old, and we ought to look at it and figure out a better, more 
workable, more realistic way to budget. And that means change. 
And there are a lot of folks who resist change, but I do think 
that we should put that on the table as well.
    One idea that I like actually comes from Arkansas, and we 
have been doing biennial budgets there, which I know you all 
support. Actually, the people just a year or two ago voted to 
go back to an annual session so we do not have to do biennial 
budgets anymore. So we are trying that for a while. I always 
thought the biennial budget worked pretty well, and I am 
certainly open to looking at that on the Federal level.
    But one of the things we do in Arkansas is balance the 
budget every year. Unlike most States, we do not have a 
balanced budget provision in the Constitution. We have a law, 
and it is the Revenue Stabilization Act, and what we do is at 
the end of the legislative session, the legislature 
prioritizes. They work with the governor, but they prioritize 
the spending into three different categories, and basically you 
connect your spending to your revenues. If it is not coming in, 
you do not spend it. It is a very simple way to do it. There is 
a formula. They now have been doing it there for 40 or 50 
years. It works great. But, again, that gets back to political 
will.
    I guess that theoretically if Arkansas wanted to, they 
could go into deficit spending, but they do not. We are one of 
the few States that actually had a fairly hefty budget surplus 
during the recession, and we actually cut taxes. We actually 
cut our sales tax on food during that same time.
    So it really does come down to leadership and will, but you 
have to have the right systems in place to get it all done.
    I mentioned the Arkansas approach because I think it is 
something we should consider as we are looking at new ways to 
budget. We ought to consider good ideas from the private 
sector, from States, and wherever else the ideas come from. Let 
us put them on the table and talk about them and see if we can 
get those done.
    With regard to the No Budget, No Pay Act, I love the 
conversation that we are having about this. Mr. Davis and Mr. 
Galston, I would like to hear from you about the response that 
you are receiving around the country. I know that the No Labels 
group has done some op-eds, and you all have been on some talk 
shows, and you have been promoting this idea around the 
country.
    What are you hearing from the country? Is it an unqualified 
``Amen,'' or do people actually have other constructive 
suggestions that go along with this? Mr. Davis, would you want 
to answer that?
    Mr. Davis. I think Mr. Galston noted it. It polls very 
well. It is almost a two-fer for the voters. You get a budget 
on time, and you get a shot at Congress. But it just shows the 
frustration at this point at Washington's inability to get 
anything meaningful done and just kicking the can down the 
road, whether it is budget, whether it is energy policy, 
whatever, and the mounting deficits just keep going up, and it 
does not appear anybody wants to do anything of a controversial 
issue. So I think it is really reflected in that.
    There may be other ways to get to that end, but I think 
there is just a frustration that they do not see any outcomes 
coming out of Washington.
    Mr. Galston. It is an interesting question, Senator Pryor, 
whether we are promoting this to the country or the country is 
promoting this to us. I think it is at least as much the latter 
as it the former. I can tell you, when I speak, the response is 
instant and electric. I can barely get to my second sentence.
    But let me say something else, and I will refer back to my 
opening testimony. I am not here to demean anybody, and the 
folks in back of me are not here to demean anybody. They are 
here to help, to lend their voices to the creation of a system 
of rules that will actually help the Congress and the country 
work better and get the people's business done. And if I 
thought that anything in this proposal or any of the other 11 
proposals were demeaning, I would not be sitting here defending 
it, which gives me an opportunity to make one more point.
    I do not think that anything in this package takes away 
anybody's First Amendment rights. I think that some of the 
pieces of this package are designed to the question of how we 
ought to exercise our First Amendment rights, which is a 
different proposition. You can have the right to do something 
and it would still be wrong to do it.
    Senator Pryor. Thank you. Mr. Chairman, thank you, and I 
look forward to continuing the conversation.
    Chairman Lieberman. Thanks, Senator Pryor. Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Mr. Chairman and Senator 
Collins, for having this hearing. Thank you all for testifying.
    I have to tell you, I very much agree with No Budget, No 
Pay. I would split it between the Senate and the House because 
I think the House is more inclined to do that and get it done 
on time. And I think where 2-by-4 is needed really is in the 
Senate. No matter who is running the House, what we have seen 
is because they have a Rules Committee, they actually get it 
done.
    The other thing I would note, you all mentioned earlier 
about nominations. According to the Congressional Research 
Service, the problem in the Senate with nominations was not a 
filibuster on the floor. The problem is they did not go through 
the committees, and that is a report I would direct you to do, 
because what that says is leadership is not demanding 
committees get their work done.
    I guess I would make a couple of points and then ask a 
couple of questions.
    I do not think it is all process. I think what is sorely 
lacking in Washington is leadership. This country is facing the 
largest catastrophe it has ever faced. It is going to come much 
sooner than everybody thinks. It is going to be much more 
painful that anyone can imagine, and not anything we are doing 
is addressing that problem right now. And that is leadership. 
That is ignoring the real world, and embracing the next 
election is far more important to our country than what is 
about to happen to us.
    And, actually, the best thing that could happen to us is 
for the Congress to say, ``Here are the problems in front of 
us. We are going to fix this this year and all go home and send 
somebody else up here.''
    I have my own views. I am a vast supporter of term limits. 
I think it is the kind of thing that limits your ability to 
think in a partisan manner and causes you to act more in a 
constructive manner for the country. I think it is helpful. 
When we talk about bucking a party, what is happening in our 
country is we are bucking the Constitution. And when you take 
one for your team instead of taking one for the American 
people, you have failed already, and that is failed leadership.
    The questions I have for you go along the line of what 
Senator Johnson said. Mr. Wolfensberger's testimony said follow 
regular order. What would the Senate look like today if we 
actually followed regular order instead of manipulating 
everything--and I am not talking about here, I am talking about 
both sides of the aisle--to create an advantage in the next 
election? What happens if we actually followed regular order? 
Since I left the House, we used to have an open amendment 
process on appropriations. I actually used that to filibuster 
in the House for the first time in its history, put 172 
amendments up on an agricultural appropriation bill. But I was 
allowed to do that because the House's history was you have an 
open amendment process.
    We do not have an open process because we have converted 
everything to the next election. We are always going to fix 
what is wrong with our country after the next election, and 
that is a lack of leadership. That is a failure of leadership 
both for us individually and our party leaders in the Senate. 
It is a failure. And the American people are anxious and upset 
about it, and rightly so.
    But here is my question. Let us make every change that No 
Labels wants to make. How do you take this culture of careerism 
out of the mix that will not, in fact, negate the very things 
that you are recommending? Mr. Galston, do you want to go 
first?
    Mr. Galston. Senator, I have no good answer to your 
question. Let me start by saying that. I will say this, and I 
would say this even if I were not in this chamber addressing 
you: If there were more committees in the Congress like this 
Committee, we would not be having this discussion. And if there 
were more Senators who were willing to do what you did on the 
Simpson-Bowles Commission, we would not be having this 
discussion.
    Senator Coburn. Well, that right there is the point. It 
matters who is here.
    Mr. Galston. I could not agree more.
    Senator Coburn. It matters who is here. It is not just 
process.
    Mr. Davis. Senator, the voters bear some responsibility, 
too, in terms of who they are sending and what they are paying 
attention to at this point.
    Senator Coburn. Sure, but what we do is allow 
gerrymandering in this country where the Congressman picks his 
district rather than the district pick their Congressman.
    Mr. Davis. Well, you have looked at what they have done in 
California where you not only have----
    Senator Coburn. I am very supportive of what they have done 
in California.
    Mr. Davis. And the runoff election provisions where it is 
between the top two, and that brings a different segment in, 
and you will see political behavior change with that. Instead 
of focusing on a narrow segment of the electorate, you talk to 
everybody, and that changes everybody's perspective in terms of 
how they do it.
    Mr. Wolfensberger. Yes, I think your point is very well 
taken. You mentioned the culture of careerism. I call it the 
``culture of the perpetual campaign,'' and that is closely 
linked. If you ask Members to look long term, what is long term 
for most Members of Congress? The next election. It is not what 
might be best in terms of really getting the debt down, 
deficits down, or anything else, and I think that is the big 
problem. How do you get that leadership that you want? I am not 
a term limit supporter, but I do think the voters bear some 
responsibility for paying some attention and turning out people 
that do not exercise the will to get things done.
    I do not think process is the solution. Rudy Penner used to 
say when he was CBO Director, or thereafter, talking about the 
deficits, ``The process is not the problem. The problem is the 
problem.''
    It is a matter of will. It is a matter of leadership. And I 
think that is something to keep in mind. How you get there, I 
am not sure. Maybe term limits ultimately will come back as a 
big issue. I do not know.
    Senator Coburn. I would just put forth in a final statement 
the fact that we have the budget situation we are in today 
would be a sign that we get along way too well rather than do 
not get along well enough. Otherwise, we would have fixed the 
problem.
    A final point. I agree with you also on the filibuster. If 
you are going to filibuster, you ought to be out there talking 
and have people who agree with you willing to carry out a 
filibuster rather than the threat of a filibuster.
    Chairman Lieberman. Thanks, Senator Coburn.
    The votes have begun on the floor, so I think we are going 
to call this to a close. But I view it very much in the terms 
that I think you, Mr. Galston or Mr. Davis said. This is the 
beginning of a conversation. I think it has been a very 
thoughtful and constructive beginning, and if I may say so in 
praise of No Labels, I think that has been the tenor of the 
movement since it began.
    People are really angry at the Federal Government, and we 
know why. We have all talked about it. And, therefore, a lot of 
the political reactions to government have been angry and 
negative. I understand it, but it does not really get us 
anywhere. In fact, one could say that in the last two national 
elections, the people of America have expressed either a 
combination of anger and hope for change in very different ways 
in 2008 and 2010, and I do not believe that either one of the 
results of those expressions at the voting booth has gotten the 
government where the people want it to be. Self-evidently, it 
has not because we are now in probably the most partisan 
session of Congress since I got here 24 years ago.
    So I want to praise No Labels because No Labels really has 
been constructive and thoughtful in response to the crisis in 
American Government. And I would also say that in doing so you 
have given voice to the largest part of the population whose 
voice is not reflected well in our political system today. As 
some of you have said, there is disproportionate influence by 
the most ideologically intense groups in both political 
parties. Independents have trouble working their way through 
the political system--as I can tell you. [Laughter.]
    But out there, there is this vast--I do not even want to be 
too descriptive, but it is a middle ground. It is a third 
force. And I think your numbers have grown so rapidly because 
you are giving voice to that force, and fortunately for the 
country you are doing it in a constructive way.
    So let us consider this the beginning of a conversation. 
Since this is my last year in the Senate, I hope we can 
accelerate the conversation because I agree with you that we 
cannot just hope and pray for a miraculous, what might be 
called, ``political awakening''--thinking of the religious 
awakenings that have occurred in American history--here in 
Congress. There is not just going to be some spontaneous 
cultural change. It has to be forced, and so I look forward to 
working with you and others to see how we might try to do that, 
hopefully in this session of Congress.
    Senator Collins, do you want to add anything?
    Senator Collins. Mr. Chairman, I just want to second your 
concluding comments and thank all of our witnesses today for 
appearing and for sharing their very thoughtful testimony. 
Thank you all.
    Chairman Lieberman. Thanks, Senator Collins.
    As is normally the order here, we will keep the record of 
this hearing open for 15 days for any additional questions or 
statements that people want to submit for the record.
    I thank everybody for being here, and with that, the 
hearing is adjourned.
    [Whereupon, at 11:46, the Committee was adjourned.]





                            A P P E N D I X

                              ----------                              





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
